<html>
<title> - THE FY20 BUDGET: STATE DEPARTMENT COUNTERTERRORISM AND. COUNTERING VIOLENT EXTREMISM BUREAU</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


   THE FY20 BUDGET: STATE DEPARTMENT COUNTERTERRORISM AND COUNTERING
                        VIOLENT EXTREMISM BUREAU

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
       THE MIDDLE EAST, NORTH AFRICA, AND INTERNATIONAL TERRORISM

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             July 24, 2019

                               __________

                           Serial No. 116-57

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                       or http://www.govinfo.gov
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-181 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e4948ba4879197908c818894ca878b89ca">[email&#160;protected]</a>                               
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman
                   
BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                              
                             
                                     
                Jason Steinbaum, Democrat Staff Director
               Brendan Shields, Republican Staff Director
               
                                 ------ 

Subcommittee on the Middle East, North Africa, and International 
                               Terrorism

                  THEODORE E. DEUTCH, Florida Chairman

GERALD E. CONNOLLY, Virginia         JOE WILSON, South Carolina, 
DAVID CICILLINE, Rhode Island            Ranking Member
TED LIEU, California		     STEVE CHABOT, Ohio
COLIN ALLRED, Texas		     ADAM KINZINGER, Illinois
TOM MALINOWSKI, New Jersey	     LEE ZELDIN, New York
DAVID TRONE, Maryland	             BRIAN Mast, Florida
BRAD SHERMAN, California	     BRIAN FITZPATRICK, Pennsylvania
WILLIAM KEATING, Massachusetts	     GUY RESCHENTHALER, Pennsylvania
JUAN VARGAS, California		     STEVEN WATKINS, Kansas

                 Casey Kustin, Staff Director 

                           
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Sales, The Hon. Nathan, Coordinator for Counterterrorism, 
  Ambassador-at-Large, Bureau of Counterterrorism and Countering 
  Violent Extremism, United States Department of State...........     7

                                APPENDIX

Hearing Notice...................................................    40
Hearing Minutes..................................................    41
Hearing Attendance...............................................    42

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted from Representative Deutch......    43

 
         THE FY20 BUDGET: STATE DEPARTMENT COUNTERTERRORISM AND.
                  COUNTERING VIOLENT EXTREMISM BUREAU

                        Wednesday, July 24, 2019

                       House of Representatives,

                    Subcommittee on the Middle East,

                    North Africa, and International

                               Terrorism,

                     Committee on Foreign Affairs,

                                     Washington, DC

    The committee met, pursuant to notice, at 2 p.m., in room 
2172, Rayburn House Office Building, Hon. Theodore E. Deutch 
(chairman of the subcommittee) presiding.
    Mr. Deutch [presiding]. This hearing will come to order.
    Welcome, everyone. The subcommittee is meeting today to 
conduct oversight of both the FY budget request for the State 
Department's Counterterrorism and Countering Violent Extremism 
Bureau and the Trump administration's overall counterterrorism 
policy. I thank our witness for appearing today.
    And I will now recognize myself for the purpose of making 
an opening statement before turning it over to the ranking 
member.
    The purpose of our hearing is to conduct oversight of both 
the FY20 budget request for the Counterterrorism and CVE Bureau 
and the administration's overall policy. In FY20, the 
administration requested a total of $170.8 million for the 
Bureau, taken collectively from the Nonproliferation, Anti-
terrorism, Demining, and Related Programs, the NADR; ESF; 
American Salaries and Security Programs accounts. And while 
this amount is an increase from the $160.6 million requested in 
FY19, it is a sharp drop from the $237 million request in FY18 
and the $294 million request in FY17.
    Vice President Joe Biden once observed, ``Do not tell me 
what you value. Show me your budget, and I will tell you what 
you value.'' And looking at the FY20 request, we could 
reasonably conclude that the administration is de-emphasizing 
efforts to counter terrorism and violent extremism, as the 
focus of U.S. foreign policy shifts toward greater power 
competition.
    However, nearly 18 years after the terror attacks of 9/11, 
the United States still faces a wide array of challenges from 
jihadist organizations like ISIS and al-Qaeda, Iranian-backed 
groups like Hezbollah, and the growing threat of white 
nationalist terrorism. In an assertive policy started under 
President Obama and continued by this administration, we have 
successfully confronted ISIS and liberated territory in 
occupied Iraq and Syria. However, while ISIS's physical 
caliphate is destroyed, the organization maintains a network of 
supporters and foreign fighters who are trained by ISIS 
operatives and loyal to the organization's cause. Most 
importantly, these individuals seek to launch attacks against 
innocent civilians in the Middle East, in Europe, and 
throughout the West.
    The United States has considered Iran to be a State Sponsor 
of Terrorism for more than 35 years. Its proxies, such as 
Hezbollah and Shia militias in Iraq, continue to sow chaos 
throughout the Middle East, threatening U.S. interests and 
military personnel, as well as our regional allies and 
partners.
    And finally, the transnational threat posed by white 
nationalist terrorism is clearly growing, as exemplified by the 
recent horrific attacks in Christchurch, at the Tree of Life 
Synagogue in Pittsburgh, and at the Chabad of Poway, just north 
of San Diego. Many have argued that white nationalist 
terrorists lack the global networks that make both jihadists 
and Iranian-backed terrorists a potent threat. However, since 
9/11, more Americans have perished in the United States at the 
hands of white nationalist terrorists than those inspired by 
radical Islamist terrorism. The point being both warrant our 
serious attention and concern. I am not convinced that the 
State Department or the entire U.S. Government is doing enough 
to counter white nationalist terrorism, and I expect that our 
witness will explain how our resources are utilized to meet 
this threat.
    The administration's National Strategy for 
Counterterrorism, released in October of last year, highlighted 
many of these challenges. Ambassador Sales, I know you and your 
Bureau supported the development and drafting of the strategy, 
and I look forward to you describing how it informs the budget 
request and how your programs support its execution.
    I am also interested in your explanation for why the Bureau 
plans to change its name from Counterterrorism and Countering 
Violent Extremism to just the Counterterrorism Bureau. And 
while you may simply seek a concise name, I hope that the shift 
does not signal a diminished focus on CVE, which obviously is 
an important element of keeping Americans safe.
    While the United States maintains CT and CVE tools that are 
second to none, success in these efforts requires working with 
other countries, and I am concerned that President Trump's 
frequent criticism of foreign nations hinders our policy and 
makes the Bureau's job more difficult. Certainly, I expect to 
hear more about our international cooperation to disrupt terror 
plots and quell the extremism that plagues too many regions 
throughout the world.
    Ambassador Sales, we look forward to strengthening our 
understanding of how the State Department's resources are 
utilized to counter terrorism and violent extremism. I also 
hope you will identify areas where greater congressional 
support is needed, so that we can work together to fulfill our 
sacred duty of keeping the American people safe.
    And with that, it is my pleasure to recognize my friend, 
the ranking member, Joe Wilson, for the purpose of making an 
opening statement.
    Mr. Wilson. Thank you, Chairman Deutch. And thank you for 
this hearing.
    I also want to thank our distinguished witness, Ambassador 
Nathan Sales, for being here to testify before the 
subcommittee.
    All of us on this subcommittee know how important the work 
is of the State Department's Counterterrorism and Countering 
Violent Extremism Bureau to our national security. Created in 
1972 in response to the Munich Olympics attack, the Bureau 
forges partnerships with foreign governments, multilateral 
organizations, and NGO's, to coordinate and advance U.S. 
counterterrorism objectives and enhance global security as well 
as our own.
    The mission of the Bureau is more important today than 
ever. Terrorist networks today are far vaster and more 
resilient than they were on September 11, 2001. The simple fact 
remains that there are more al-Qaeda fighters today than there 
were before 9/11. The evil ideology that inspired the hijackers 
today is more popular than it was at the time of the hijacks. 
It inspired thousands to travel to Syria and Iraq. It animated 
the brutal terrorist Statelet that called itself the Islamic 
State of Iraq and Syria. The global jihadist movement today is 
greater than anytime since Bin Laden could have ever imagined.
    Fortunately, ISIS has lost control of all of its territory 
it once held, but it is far from defeated. A Pentagon report 
from earlier this year noted, quote, that, ``absent sustained 
pressure, ISIS could likely resurge in Syria within 6 to 12 
months and regain limited territory.''
    At the same time, Iran is continuing to live up to the 
title of No. 1 State sponsor of terrorism. I applaud the Trump 
administration for taking a hard line against the mullahs in 
Tehran and their support for the terrorist groups throughout 
the world.
    Chairman Deutch and I have just returned from a delegation 
with his very talented and involved son Cole that visited 
Argentina to mark the 25th anniversary of the bombing of the 
AMIA Jewish Community Center in Buenos Aires. Iran is 
responsible for that attack which killed 85 innocent people. No 
one has ever been held accountable.
    Iran is sponsoring terrorist militia proxies in nearly 
every Middle Eastern battlefield today. In Yemen, they have 
provided game-changing support to the Houthi rebels, 
effectively destabilizing the country and perpetuating the 
humanitarian catastrophe of epic proportions.
    In Syria, Iran's Hezbollah henchmen and Pakistani and 
Afghani mercenaries put their lives on the line to prop up the 
Assad butcherous regime. And in Iraq, they fund an array of 
militias who do their bidding. The list goes on and on.
    And I am grateful for the administration's designation of 
an Iranian-backed militia in Iraq earlier this year. This is 
just the beginning. It is time we call the Badr Organization 
and AAH what they really are, terrorist groups doing Iran's 
bidding in Iraq.
    I applaud the White House's National Security for 
Counterterrorism Strategy. It correctly frames the battle in 
terms of an enduring challenge that must be managed to protect 
the homeland, instead of a mission that has a beginning and an 
end.
    But I am concerned that the focus on great power 
competition will distract the United States from the very real 
terrorist threat. We are in a global war on terrorism, and this 
will be a generational battle, whether we like it or not. There 
is no doubt that our geopolitical rivals, Russia and China, 
pose serious challenges to our national security, but it is the 
threat of terrorism that is, indeed, enduring. We are going to 
have to learn to walk and chew gum at the same time. We simply 
cannot afford to be caught asleep at the wheel again.
    Ambassador Sales, thank you for your important work and 
being here today. We look forward to your testimony.
    I yield back.
    Mr. Deutch. Thank you, Mr. Wilson.
    And without objection, all members may have 5 days to 
submit statements, questions, and extraneous materials for the 
record, subject to the length limitations in the rules.
    It is now my honor to introduce our witness, Ambassador 
Nathan Sales. Ambassador Sales was sworn in on August 10, 2017, 
as the Coordinator for Counterterrorism with the rank and 
status of Ambassador-at-large. He leads the State Department's 
Counterterrorism Bureau and serves as the principal advisor to 
the Secretary of State on international counterterrorism 
matters.
    Before joining the State Department, Ambassador Sales was a 
tenured law professor, served as Deputy Assistant Secretary for 
Policy at the Department of Homeland Security, and served at 
the Office of Legal Policy at the Department of Justice, where 
he worked on counterterrorism policy and judicial 
confirmations, and received the Attorney General's Award for 
Exceptional Service and the Attorney General's Distinguished 
Service Award.
    Thank you, Ambassador Sales, for being here today. I will 
remind you to please limit your testimony to 5 minutes. And 
without objection, your prepared written statement will be made 
a part of the record. Thank you so much for being here, 
Ambassador Sales.

        STATEMENT OF HON. NATHAN SALES, COORDINATOR FOR 
       COUNTERTERRORISM, AMBASSADOR-AT-LARGE, BUREAU OF 
   COUNTERTERRORISM AND COUNTERING VIOLENT EXTREMISM, UNITED 
                   STATES DEPARTMENT OF STATE

    Ambassador Sales. Thanks very much, Mr. Chairman. Chairman 
Deutch, Ranking Member Wilson, and distinguished members of the 
subcommittee, thank you for this opportunity to appear before 
you today. I am happy to be here to discuss the State 
Department's counterterrorism priorities, our FY 2020 budget 
request, and our efforts to protect our country from terrorist 
threats.
    The threats we face today are more complex than ever 
before. We have destroyed the false ISIS caliphate in Syria and 
Iraq, but now we need to stop ISIS from continuing the fight 
from its networks and branches around the world. Meanwhile, al-
Qaeda has taken advantage of the world's recent focus on ISIS 
to quietly reconstitute its capabilities. Today, its network is 
as strong as it has ever been.
    Iran remains the world's worst State sponsor of terrorism. 
It has dedicated about $1 billion a year to support terrorist 
proxies across the globe, including Hezbollah. Iran can and 
does strike anywhere. We were reminded of this last week in 
Buenos Aires, where I joined Secretary Pompeo and others in 
commemorating the 25th anniversary of Hezbollah's bombing of 
the AMIA Jewish Community Center.
    As the threats we face to continue to evolve, the United 
States and our partners increasingly will need to rely on 
civilian sector counterterrorism tools. Counterterrorism is not 
just a problem that needs military solutions; it is a problem 
that requires civilian sector solutions as well.
    And the administration's 2020 budget request includes more 
than $241 million to sustain a number of vital programs. Those 
include the Counterterrorism Partnerships Fund, or CTPF, the 
Antiterrorism Assistance Program, the Terrorist Interdiction 
Program, as well as our CVE efforts. This will enable us to 
advance key priorities which include building law enforcement 
capacity to investigate and prosecute terrorists; enhancing 
aviation and border security; countering the financing of 
terrorism, and combating terrorist radicalization and 
recruitment.
    The fight against terrorism is not a battle that we can win 
on our own. We need capable and willing partners to play their 
part in confronting this global scourge. Our budget request 
represents an investment in the CT capabilities of our partners 
on the front lines. Our goal is for them to be able to confront 
the terrorist threats they face without needing to rely on the 
United States for continued assistance.
    While we are ready to help our partners fight the terrorist 
threat before it reaches our shores, we are also asking them to 
increase their own commitment of resources to this fight. Since 
the Trump administration began to emphasize equitable burden-
sharing more than 2 years ago, some of our partners have 
stepped up in important ways, but there is more that they can 
and should be doing.
    Let me review some of our main counterterrorism efforts. 
First, increasing our partners' ability to investigate and 
prosecute terrorists for the crimes they have committed. One 
example is our use of CTPF funds to develop the Somalia Police 
Force joint investigative teams. These teams have investigated 
more than 400 terrorist attacks, resulting in more than 100 
convictions.
    We are also promoting the use of battlefield evidence in 
civilian settings. Battlefield evidence can be crucial to 
convicting terrorists, including foreign terrorist fighters who 
have been captured and are in custody in Syria. Let me pause 
for a moment on that theme.
    I should note that the CT Bureau has taken the lead in 
pushing nations to repatriate and prosecute their FTFs. We 
assess that that is the most effective way to prevent these 
battle-hardened terrorists from returning to the fight. While 
some countries have responded, others continue to refuse. Let 
me speak plainly. Hoping that others will solve this problem 
for you is not a recipe for success.
    The second priority is stopping terrorist travel. Over the 
past year, we have expanded the PISCES system. That stands for 
Personal Identification Secure Comparison and Evaluation 
System. In February, the Afghanistan border police were able to 
arrest a senior Taliban member, Abdul Jalil Haqqani, when he 
triggered a match in PISCES.
    More broadly, CT promotes effective screening and 
watchlisting around the world. We are pushing ICAO to adopt a 
standard for using passenger name record data to screen 
travelers, and we would like to see that in place by the end of 
this year. We are also leading an effort to extend access to 
INTERPOL data bases at ports of entry in 60 key countries by 
2021.
    Third, terrorist designations. We continue to hit 
terrorists and their sponsors in the wallet by making it harder 
for them to raise money and move it through the international 
financial system. Since January 2017, the State Department has 
completed more than 100 terrorism-related designations actions. 
That includes 43 actions against ISIS-related individuals and 
entities. We have also announced 30 actions related to al-
Qaeda, 12 related to Hezbollah, and 13 related to other Iran-
backed terrorists.
    In April, Secretary Pompeo designated Iran's IRGC, 
including its Quds Force, as a foreign terrorist organization. 
This is the first time the U.S. has ever designated part of 
another government as an FTO. This unprecedented step will help 
us starve the Iranian regime of the resources it uses in its 
deadly campaign of terrorism around the world.
    We continue to urge other countries to designate Hezbollah 
in its entirety and reject the false distinction between its 
military wing and a purportedly political wing. Just last week, 
Argentina became the first country in South America to do so, 
and we applaud it for its leadership. Argentina's action comes 
on the heels of the decision by the United Kingdom in May to 
designate Hezbollah in its entirety as well.
    We also work closely with the Bureau of Diplomatic Security 
to integrate the Rewards for Justice Program with our terrorist 
designations. In November 2018, we announced the $5 million 
reward for information leading to the identification or 
location of Khalid al-Batarfi, a senior regional leader for al-
Qaeda in the Arabian Peninsula.
    Finally, we are addressing terrorists' ability to 
radicalize and recruit by bolstering our CVE efforts. For 2020, 
we are requesting a substantial increase in funding for our CVE 
programming, nearly 60 percent above last year's request. Show 
me what you spend money on, and I will show you what you value.
    Finally, we are addressing terrorists' ability to 
radicalize. I said that already. In the CVE space, we work to 
combat the underlying ideology that breeds terrorism. We are 
partnering with government officials, private sector actors, 
religious figures, and community leaders to help craft counter-
narratives that are capable of turning people away from a path 
toward radicalization. In my written testimony, you will see 
examples of where these and many other efforts have yielded 
concrete and tangible results.
    Mr. Chairman, Mr. Ranking Member, we greatly appreciate the 
resources that Congress has appropriated to us as we execute 
this important mission. We have made responsible, effective use 
of those resources. They will help ensure that our partners 
remain committed to our common fight and have the tools they 
need to counter the evolving terrorist threat.
    I look forward to your questions and to our conversation. 
Thank you.
    [The prepared statement of Ambassador Sales follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Deutch. Thank you, Ambassador Sales, for your 
testimony.
    We will now move to member questions. Under the 5-minute 
rule, I will begin, followed by Ranking Member Wilson, and 
then, we will alternate between the parties.
    Ambassador Sales, I wanted, also, to pick up where you and 
Mr. Wilson left off on the topic of Hezbollah. I would like to 
commend you and the Bureau for your work that led to Argentina 
designating Hezbollah as a terrorist organization. As the 
ranking member pointed out, we were proudly part of a 
delegation also in Buenos Aires marking 25 years since the AMIA 
bombing and applauding Argentina for the designation.
    I was also glad to see that in the joint communique of the 
Ministerial Conference for the Fight Against Terrorism 16 
countries expressed concern about the activities of Hezbollah's 
network in the Western Hemisphere. In your opinion, what are 
the most important factors in securing those diplomatic 
victories? What are you doing? How can we be helpful? And in 
the victories thus far, do they offer any lessons for 
convincing other countries to designate and call out all of 
Hezbollah for their terrorist activities?
    Ambassador Sales. Well, thanks, Mr. Chairman. I would say 
that success has many fathers and many mothers. A lot of people 
have been working this file for a very long time. There is one 
other deliverable that I would emphasize from the Ministerial 
that I think is also important. And that is that the United 
States has agreed with Argentina and Brazil and Paraguay to 
launch a new regional security mechanism that will be focusing 
on Hezbollah financing and other activity in the tri-border 
region of those three countries, as well as organized crime and 
the connection between organized crime and transnational 
terrorism. We look to build on the successes of the three-plus-
one security dialogue, which has been dormant for more than a 
decade.
    I think, going forward, the challenge will be to ensure 
that countries in South America have equipped themselves with 
the same legal tools that the United States has, and that now 
Argentina has, to make designations, to impose sanctions on 
terrorist groups like Hezbollah and cutoff their money. 
Argentina's decision to designate Hezbollah and, also, its 
decision to adopt a legal framework is a model for the rest of 
South America, and we are encouraging our partners to follow 
their lead.
    Mr. Deutch. Thank you very much.
    The National Strategy for Counterterrorism States, and I 
quote, ``The strategy will protect the United States against 
all terrorists that threaten our country. We will not focus on 
a single organization, but we'll counter all terrorists with 
the ability and the intent to harm the United States, our 
citizens, and our interests abroad.''
    Ambassador Sales, how does white national terrorism fit 
into this approach, and what is the administration doing to 
meet the challenge of that sort of terrorism?
    Ambassador Sales. Well, Chairman, I will start with the 
strategy that you began with as well. It begins with clearly 
identifying the threat, and this administration has clearly 
identified the threat. In the National Strategy for 
Counterterrorism, we specifically call out racially motivated 
extremism, racially motivated terrorism, as a problem that 
merits further attention, a problem that threatens our 
interests here at home and abroad. We were the first 
administration to ever include a reference to racially 
motivated terrorism in a National CT Strategy. So, we are 
clear-eyed about this threat.
    Let me say a few words about the division of labor. The 
State Department plays a role here alongside domestic agencies, 
such as the FBI and such as Homeland Security, both of which 
have sent representatives up to Congress to testify as to the 
actions that they are taking to confront this threat.
    The State Department's role here is the one that I will 
speak to at greater length. We are looking at at least three 
lines of effort to address this challenge.
    First of all, we are looking at the extent to which 
racially motivated, ethnically motivated, religiously motivated 
terrorist groups operate as international networks or seek to 
cross international boundaries.
    A second thing that we are focusing on is the risk of a 
cycle of escalation between jihadist terrorist groups that 
might commit an attack, racially motivated groups that commit 
an attack in response or in retaliation, setting off a cycle.
    And a third area that my team and I are focusing on is the 
extent to which racially motivated terrorist groups are 
learning from the techniques and tactics of jihadist groups 
like ISIS and al-Qaeda, such as online radicalization, such as 
communications, and such as fundraising.
    I just returned--I know you are short on time, but there is 
one last point I wanted to share with you.
    Mr. Deutch. All right. Good.
    Ambassador Sales. In June of this year, I was in London for 
3 days of meetings on this very topic with our like-minded 
partners, Western European countries that focus on the 
counterterrorism challenges that we focus on. And there was a 
consensus that this is a problem that requires more attention. 
I can also tell you our partners are just now beginning to 
address this problem in the same way that we are. So, it is 
something that we will be working on more going forward.
    Mr. Deutch. I appreciate that, Ambassador Sales. I hope 
that you will keep us apprised on efforts that you are 
undertaking and that we can participate in with you in 
collaborating with our like-minded international partners who 
can help us address this.
    Ambassador Sales. I am happy to do so. My team has offered 
a classified Members' level briefing, and we are working to get 
that scheduled for sometime this fall. So, I would be happy to 
brief you at greater length.
    Mr. Deutch. Great. We will look forward to that. Thank you.
    Mr. Wilson, you are recognized.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Ambassador, again, thank you for your service and your 
testimony. It has really been very helpful.
    As you cited, last week Argentina, a very dynamic country 
of extraordinary citizens, designated Hezbollah a foreign 
terrorist organization. What is the significance of this 
designation and what are the prospects of other Latin American 
countries making similar moves?
    Ambassador Sales. Well, thanks for the question.
    I think there are two important dimensions to this. First, 
the symbolic and messaging dimension and, second, the practical 
dimension. The messaging aspect of this is clear. The Southern 
Hemisphere is awakening to the reality that Hezbollah is a 
global terrorist threat. It is not the defender of Lebanon, as 
it purports to be. It is a terrorist organization that operates 
as a proxy for the regime in Tehran.
    Just as important I think are the practical consequences of 
this designation. It equips Argentina's law enforcement and 
financial sector, financial regulators, with the tools they 
need to cut off the flow of money to Hezbollah and its 
facilitators. We would like to see more countries in the region 
follow their lead.
    Mr. Wilson. And I hope every effort is made to help the 
countries and Argentina itself. The prosecutor Nisman who was 
proceeding with the investigation was assassinated. And 
actually, there has been no prosecution. And so, any way that 
we could help countries around the world to identify who the 
perpetrators are, and then, bring them to justice, it certainly 
would be helpful.
    Ambassador Sales. If I may on that point----
    Mr. Wilson. Yes.
    Ambassador Sales [continuing]. I strongly agree with you, 
Mr. Ranking Member, and that is why the Secretary of State 
announced a Reward for Justice in the amount of $7 million for 
Salman Rauf Salman, who was the on-the-ground orchestrator of 
the AMIA attack in 1994.
    Mr. Wilson. And that was front page of the newspapers in 
Argentina. So, congratulations on your and Secretary Pompeo's 
success.
    The United Kingdom is considering making it illegal for 
citizens to travel to certain countries or regions within a 
country that are designated as terrorist areas, save havens. 
What are your thoughts on these proposals, and would it make 
sense for the U.S. to consider similar prohibitions?
    Ambassador Sales. Well, I think every country needs to have 
a law on the books that enables them to hold accountable people 
who fight for ISIS or other terrorist organizations. Here in 
the United States, our prosecutors have used the material 
support statute to prosecute folks who have traveled to Syria 
to fight for ISIS or attempted to do so.
    I do not have particular policy advice for our friends in 
the United Kingdom, but we applaud, as a general matter, their 
efforts to make sure that their statute books are updated to 
reflected the nature of the threat we face.
    Mr. Wilson. Additionally, groups like ISIS and al-Qaeda 
continue to use social media for recruiting and virtually 
guiding attacks. How would you grade social media companies in 
their efforts to block extremist content? What is the CT 
Bureau's strategy to address social media companies based 
outside the United States that are taking insufficient action, 
like Telegram?
    Ambassador Sales. I think they have made progress, but I 
also think they have some more work to do. The internet service 
was--let me take a step back. The U.S. approach for many years 
has been to support tech companies' voluntary removal of 
content that violates their terms of service or that violates 
U.S. law. And we have been encouraged to see Silicon Valley do 
more to remove content from their platforms. They recently 
formed an organization known as the GIFCT, or Global Internet 
Forum to Counter Terrorism, in which established players in the 
market are able to share techniques with new entrants about how 
to spot terrorist content online and the most effective 
techniques for identifying it and removing it. We would like to 
see more. We would like to see the content come down more 
quickly. We would like to see information shared more 
extensively. But we are pleased to see that the industry has 
taken some important steps.
    Mr. Wilson. I am really grateful that I have had two sons 
serve in Iraq and am just so hopeful for a free and democratic 
Iraq. But it concerns me that there have been reports that U.S. 
foreign assistance has been dispersed to officially Iranian-
backed militias tied to the IRGC. What is being done to make 
sure that American taxpayers' money is not being used 
ultimately to attack America?
    Ambassador Sales. I share the concern, Mr. Ranking Member. 
Iran-aligned militias exist throughout Iraq. They have proven 
themselves to be a threat to the United States, and they have 
proven themselves to be a threat to the Iraqi government as 
well.
    Let me just say, nothing is more important to the State 
Department than force protection. If our diplomats are serving 
abroad, if our soldiers are serving forward, it is essential to 
make sure that they are protected from violence or the threat 
of violence.
    What we have done about this at the State Department, we 
have imposed terrorism-related sanctions on a number of these 
organizations, such as Kata'ib Hezbollah which operates in 
Iraq, such as HAN which operates in Iraq. We just designated 
HAN several months ago, and we are continuing to look at other 
organizations aligned with Iran that might meet the standards 
for terrorist designations.
    Mr. Wilson. Thank you very much.
    Ambassador Sales. Thank you.
    Mr. Deutch. Thank you, Mr. Wilson.
    Mr. Sherman, you are recognized.
    Mr. Sherman. Thank you.
    I want to commend you for designating the IRGC as a foreign 
terrorist organization. We fight terrorism, but I am not a fan 
of the change of name because I think fighting violent 
extremism, dealing with the ideology is the most important way 
to fight terrorism. Once there is already people plotting with 
guns and with explosives, and you intercept them, or you do 
not, that is already almost too late. You want to stop when 
they are even thinking that that would be a way for them to 
dedicate their efforts. That is why I think the most important 
thing we do is the broadcasting and the work on the internet to 
get the right message out.
    I am familiar with the State Department over the last 22 
years, very bright people who go to very, very good colleges 
and universities and grad school programs. But there are people 
in my district that may not have a degree in diplomacy but 
understand the culture of a country from which a lot of the 
terrorism comes. Do you have the flexibility to hire people 
because they understand Saudi Arabia or Iran, because they have 
lived there, they have grown up there? Or do you pretty much 
just have to hire people that studied about Iran when they 
first got to college?
    Ambassador Sales. No, Congressman, we want the best and the 
brightest.
    Mr. Sherman. But do you have the flexibility to hire people 
based on their understanding of a culture and the language as a 
native speaker, as an understander, as someone who grew up in 
the culture, rather than somebody who can prove it because they 
have a master's degree?
    Ambassador Sales. Yes, we do.
    Mr. Sherman. OK, good.
    Ambassador Sales. And I say it as somebody who does not 
have a master's degree in foreign relations.
    Mr. Sherman. What?
    Ambassador Sales. I say this as somebody who does not have 
a master's degree in foreign relations.
    Mr. Sherman. OK. And then, for the record, I would like you 
to describe what somebody should do if they want to enter the 
chat rooms and combat the violent extremists, but they do not 
want to be thought of--they do not want the FBI knocking on 
their door and saying, ``Hey, you're in the chat room. Time to 
be deported.'' What can be done by people to register with or 
cooperate with law enforcement, so that they can be volunteers 
in the chat rooms?
    The U.S. dollar has played a critical role in everything we 
have done. It is the reason why Iran is exporting only half a 
million barrels of oil. And you recognize that. You have got a 
whole program of counterterrorism finance and assistance to 
other countries to help them develop financial intelligence 
units. The people working against you most effectively are 
those creating crypto currencies. The administration, both 
Mnuchin and Trump, have denounced those crypto currencies. They 
are going to undermine your efforts. You are not going to be 
able to do this. Are we going to see from the administration 
proposed legislation to ban crypto currencies or just the press 
releases?
    Ambassador Sales. Well, Congressman, it is an important 
topic. Terrorists are very adaptive. When you cutoff one avenue 
for them to raise money, they look for others.
    Mr. Sherman. And we know that Hamas advertises for Bitcoin 
contributions. We know that the advocates of Bitcoin brag about 
how this is a device to escape the power of the U.S. Federal 
Government. And we know that Zuckerberg is planning to allow 
people to trade in his currency--I call it the ``Zuck buck''--
without anyone actually knowing who they are.
    But I want to shift to one other question. The United 
Kingdom ended this fictitious designation, their distinction 
between Hezbollah's military and political wing. Argentina took 
a similar step. What is the State Department doing to get other 
countries to recognize that Hezbollah is Hezbollah?
    Ambassador Sales. Hezbollah is Hezbollah, and we can take 
their word for it. We do not have to look at their finances to 
know that they are a terrorist organization, root and branch. 
We can simply look at what their leaders say.
    So, we are holding up to other countries the example of the 
U.K. and the example recently set by the Argentines. I cannot 
get into the details of confidential diplomatic negotiations 
here, but I can----
    Mr. Sherman. Well, I would hope that you would involve 
Members of Congress. These Ambassadors and foreign ministers 
come to us all the time. And if you can identify those that 
should hear from those on this committee and subcommittee that 
deal with them, please allow us to be helpful in that.
    And I will yield back.
    Ambassador Sales. Well, thank you for that, and we will 
certainly take you up on that kind offer.
    Mr. Deutch. Thank you.
    Mr. Kinzinger, you are recognized.
    Mr. Kinzinger. Well, thank you, Mr. Chairman.
    And Mr. Ambassador, thanks for your good work and for being 
here.
    There is certainly a military component to 
counterterrorism. I think it is a central component. If 
somebody is radicalized and they have made it clear that they 
want to destroy the United States, like a group of ISIS, then 
they deserve to be on the receiving end of U.S. military power, 
and certainly we are in and we will continue to be.
    But I also think there is a social component, which is 
really where your kind of bread and butter comes in. And my 
concern, when you look at the situation in Syria, for instance, 
I think our inaction there has been, frankly, a big shame on 
our country in the long term. I think we have a situation where 
terrorists have been recruited, not out of necessarily an 
affection toward that thought process, but because they see no 
other alternative to a guy that killed their dad and their 
grandparents, and their kids in some cases. And so, they have 
radicalized.
    And so, my concern with Syria specifically is, when you 
think of the 7-, 8-, 9-, 10-year-olds right now that are in the 
refugee camps in Lebanon and Turkey and Jordan, and displaced 
anywhere else, one of the best ways to prevent, whether it is 
somebody being recruited into a gang in the United States or 
into a terrorist group, is to give them hope and opportunity, 
and to give them a future, because they are much less likely to 
be radicalized.
    I appreciate your budget proposal, and I think we will be 
very supportive of it, but what in there are you guys focusing 
on in terms of preventing the next generation, the 7-, 8-, 9-
year-olds? Because they are going to be the ones that have to 
actually defeat terrorism because they are going to do it 
within their own religion.
    Ambassador Sales. No, I agree with that, and this really 
goes to what we are trying to do with our CVE programming. And 
I want to agree with what Congressman Sherman said a moment 
ago. By the time they have strapped on the SVEST, it is too 
late to change them from a path to radicalization and violence. 
We have got to get to them earlier.
    So, we have done a number of different programs in the CVE 
space, and our request for a 60 percent increase in CVE-related 
funding will help us expand these efforts. One of the things we 
have done is create an online graphic novel that depicts the 
realities of life under ISIS's brutal rule and it shows would-
be recruits the effects that their decision to travel to Syria 
would have on their families, on their mothers, fathers, their 
siblings. It was seen by 17 million people, and as a result, we 
saw a really dramatic decline in viewers' support for terrorist 
organizations and terrorist ideology. Support for radical 
ideology went down 40 percent among the 17 million people who 
saw this, and support for specific organizations went down even 
more dramatically, by 50 percent.
    So, that is the kind of battle of ideas that I think has to 
be a central part of any campaign against terrorists, and that 
is the sort of work that my Bureau wants to do with the budget 
that Congress entrusts us with.
    Mr. Kinzinger. Well, I think about it because I think the 
difficulty of your job--and frankly, the military, too--is you 
can never quantify what did not happen that could have 
happened. For instance, we have debates in here with people 
that want to cut the U.S. military, of people that want to pull 
the troops out of everywhere around the world and become, 
basically, neoisolationists. And the reality is, it is hard to 
quantify what actually has been prevented by, for instance, 
fighting terrorists where they exist instead of where we exist.
    So, I would continue to encourage you to look at that next 
generation, because I think, like the cold war, you know, it 
took decades to win, it ultimately was won, yes, by our 
military buildup economically, but it was won by the ideas 
behind the Iron Curtain that eventually overthrew the yoke of 
communism. And the same will happen here.
    I want to just touch on a couple of other issues. It may 
not end up being a question because I have limited time. But 
Josh Rogin today put out a piece in the Washington Post about 
Rukban in Syria that is 30,000 people under the protection of 
the United States near the Tanf area, and how we are not 
feeding them, and that we are actually in negotiation right now 
with Russia to help feed them.
    I just want to put it out there on the record that I think 
those kinds of things--and they may be out of your purview--but 
those kinds of things will actually help to recruit terrorists 
in the future, when they see the United States not feeding an 
area of people that are desperate and hungry and starving, when 
400 meters away U.S. troops are fed. I think those are basic 
things you can do to eliminate that population.
    Iran also, again, as everybody else has, I want to commend 
you on what you have done with Hezbollah. I think seeing 
Iranian investment in terrorism prior to the nuclear deal, 
during the nuclear deal, and post-pullout of the United States 
of the nuclear deal, I think you would definitely see that 
those investments track along that action. And we have seen, 
for instance, in Lebanon much less Iranian investment in 
Hezbollah there because they simply do not have the money.
    And the last point I want to make in my 17 seconds is 
Afghanistan. I think the United States is making a strategic 
mistake by negotiating with the Taliban without including the 
Afghan government, because the Taliban are a terrorist 
organization. You cannot trust the Taliban. Eighty percent of 
the Afghan people support the United States being involved in 
Afghanistan, and I think to leave the Afghan government out of 
those negotiations is a terminal mistake.
    So, I know some of that is not in your purview, but I 
wanted to get that on the record. Thank you so much for your 
service and for being here.
    And I yield back.
    Mr. Deutch. Thank you, Mr. Kinzinger.
    Mr. Keating, you are recognized.
    Mr. Keating. Thank you, Mr. Chairman.
    And thank you, Ambassador, for being here today and the 
work you are doing.
    It was not long ago that a group of us in Congress went 
around sort of tracking the foreign terrorist fighters and 
where they came from originally. Clearly, one of the areas with 
the greatest influx of these recruited terrorist fighters was 
the European area as a whole and the thousands of people that 
were there.
    I am just curious in terms of coordination with Europe, 
what are they doing there? What is the EU doing? What are 
countries perhaps doing individually to try and deal with this? 
And how are we coordinating with them?
    Ambassador Sales. Well, thanks for the question. I think 
the answer is not enough. As you pointed out, Western Europe 
was a pretty fertile ground when it comes to ISIS recruiting. 
Thousands of them traveled to Syria to fight for the false 
caliphate, and a number of them are now in custody of our 
coalition partners.
    Our policy in the Trump administration is that every 
country has a responsibility to repatriate their citizens and 
prosecute them for the crimes they have committed. We think 
that is the most effective way to ensure that they never return 
to the battlefield. Because if given the opportunity, they 
certainly will look for ways to continue the fight.
    This is something the United States has lived up to. We 
have repatriated five fighters, four men, one woman, and they 
have faced charges here in the United States. It is not too 
much to expect that Western European countries that have deep 
pockets and courts that are accustomed to trying difficult 
cases will be able to do the same.
    Other countries around the world with fewer resources and 
fewer capabilities have been able to repatriate and prosecute. 
Kazakhstan, for instance, has brought back several hundred of 
its citizens. Kosovo has brought back a number of its citizens 
as well. We would like to see that kind of activity in Western 
Europe, too.
    Mr. Keating. Yes. Now, as we mentioned before, we are 
really fighting an ideology and an idea. We did a great job, I 
think, with our allies working on the caliphate, reducing the 
geography there. But it is safe to say, is it, that there is 
going to be more incubation of other terrorists, maybe not the 
scope that we had during the last several years where there was 
a caliphate to go to, but is this still ongoing?
    The prisons, particularly in Europe, are a great incubator 
of conversion to this kind of extremist ideology. So, in terms 
of the current efforts in preventing future terrorist fighters 
or extremists, anything going on in Europe with that that you 
are aware of? And are we coordinating with them in any respect?
    Ambassador Sales. We are, yes. I think our European allies 
are well aware of the vulnerability that they face to 
radicalization in their societies. The countries that saw the 
greatest number of their citizens travel to ISIS are, in no 
particular order, the U.K., France, Belgium, and Germany, 
measured per capita.
    And I think that the outflow of fighters was a real wake-up 
call for our European partners that we need to be doing more at 
the front-end of a terrorist life cycle.
    Mr. Keating. Yes.
    Ambassador Sales. We need to engage them as they begin to 
take the steps toward radicalization.
    Mr. Keating. Along those lines--and I apologize; I only 
have a minute and a half left--but, along those lines, this 
committee and the full committee have worked hard to engage 
women in prevention of this kind of extremist behavior and 
growth of this ideology. They are in a wonderful place, in the 
better place I think, as a mother, as a sister, to see this 
really transpire and to deal with it. Are we engaging women? I 
mean, we have done a lot with Women, Peace, and Security, and 
the administration is joining in that effort. But is this an 
area of concern? Is this an area of focus for the 
administration, engaging women in this prevention?
    Ambassador Sales. Absolutely. And let me give you a couple 
of examples of some of the things we are doing. Women can be 
victims of terrorism. They can be perpetrators of terrorism. 
They can be observers of terrorism and serve as a sort of early 
warning mechanism, as radicalization begins to take place.
    So, some of the things that we have done to address this 
challenge, the set of challenges, in Southeast Asia and in the 
Balkans, we have a number of programs where we work with 
mothers to help them spot the signs of radicalization in family 
members, so that they are able to intervene before it becomes 
too late.
    It is also the case that women are able to gain access to 
certain communities that males may not be able to gain access 
to. And that is why in Iraq, for instance, we recently trained 
an all-female class of police recruits, because we assess that 
they will be able to make connections with parts of the 
population that is unique. And we are doing that sort of work, 
also, in places like Niger and the Philippines as well. So, 
this a top priority.
    Mr. Keating. Thank you. I have been there for some of those 
trainings, as a matter of fact, a few years ago.
    I yield back.
    Mr. Deutch. Thank you. Thank you, Mr. Keating.
    Mr. Mast, you are recognized.
    Mr. Mast. Thank you, Chairman. I appreciate it.
    Sir, I would love to just start with something that has 
been spoken about a lot on both sides, and it is the underlying 
ideology, the under ideology, the caliphate. And if you could 
just be a little bit more specific and identify for us what is 
the underlying ideology that we are all combating that breeds 
terrorism?
    Ambassador Sales. Well, thanks for the question. So, let me 
start with ISIS, in particular----
    Mr. Mast. Please do.
    Ambassador Sales [continuing]. Because there are obviously 
variations among different groups. ISIS, in particular, 
advances a supremacist and intolerant vision of Islam that sees 
people who are Sunni but practice differently as inferior, and 
that certainly sees Shia Muslims, Jews, Christians, and people 
of other faiths or no faiths, as ``the other''. And the 
ideology further prescribes the use of violence to achieve a 
desired political end-State of a caliphate, particularly the 
use of violence against people who do not subscribe to ISIS's 
teachings. That is it in a nutshell, Congressman.
    Mr. Mast. So, beyond somebody committing a violent act, 
which is a pretty telltale sign that somebody has been 
radicalized, what are some of these signs of radicalization 
that you have been speaking about and others have been asking 
about?
    Ambassador Sales. Yes. So, other signs of radicalization 
that are short of acts of violence or support for violence 
would be support for supremacists or intolerant theological 
interpretations. The notion that, if you are a Christian, if 
you are a Jew, if you are a Shia, you are less than fully 
human. You are not entitled to the same legal protections as 
others. You should be shunned. You should be subjected to 
various forms of pressure. Those are some of the signs that are 
not always associated with violence, but that can lead to steps 
down the road to violence.
    Mr. Mast. So, where would you say, in looking at this 
ideology and some of these signs of radicalization, do we see 
our partners lacking in capabilities in combating terrorism, in 
combating these that are becoming radicalized? And then, I 
would say, even more specifically, which partners are lacking 
in those capabilities? Obviously, there is a difference between 
lacking in capability and lacking in commitment. And so, if it 
leads you to touch upon that as well, I would encourage you to 
do so.
    Ambassador Sales. Sure. I think a lot of countries have 
some work to do here. I would say that the United States has 
been relatively successful compared to some of our peer 
countries in combating ideology that terrorists use to 
radicalize and recruit.
    One of the things that we have been trying to do in the CT 
Bureau is to partner with authorities who can speak credibly 
and offer alternatives to this radicalizing and intolerant 
ideology. So, we work with members of civil society and 
religious leaders in places like Jordan, places like Morocco, 
Indonesia. These are all parts of the world that have 
longstanding and deep roots in a version of Islam that 
emphasizes pluralism and tolerance and respect for difference 
and coexistence. And those are the sorts of voices that I think 
we in the United States, and other countries that are 
struggling with radicalization, need to be partnering with, 
because they have a credible account that Western governments 
simply cannot match.
    Mr. Mast. So, are they lacking capability or commitment 
then?
    Ambassador Sales. I think it is not so much commitment. I 
think there is a recognition of the problem and there is a will 
to address the problem. I think some countries are--overwhelmed 
is too strong a term, but worried about their resources and 
their ability to reach the vulnerable populations, which is why 
I think partnering with those authentic voices is the most 
effective approach.
    Mr. Mast. So, I want to go to back to this a little bit 
more. When we talk about U.S. taxpayer dollars, looking for 
partners that need assistance with their capabilities, and us 
partnering with them, so that we can, hopefully, prevent 
attacks here at home, who are some of these specific partners 
that need help with their capabilities? And where do our 
resources go to help with a capability, not a lack of 
commitment, based upon the ideology within their own 
population?
    Ambassador Sales. Well, I can tell you that we are very 
active in this CVE work in places like West Africa, East 
Africa, the Balkans, Southeast Asia. These are all regions 
where countries may not have the same resources that the U.S. 
has, but they have the will to address the problem and the will 
to be a partner of the U.S. So, I think we are seeing some good 
returns on investment there.
    Mr. Mast. My time is expiring. I thank you for the time, 
Mr. Chairman, and I yield back.
    Mr. Deutch. Thank you, Mr. Mast.
    Mr. Allred, you are recognized.
    Mr. Allred. Thank you, Mr. Chairman.
    And thank you, Mr. Ambassador, for being here.
    I want to begin by talking about ISIS. Despite the claim 
from the President that ISIS has been defeated, as you noted in 
your testimony, we have an ongoing fight here. And I recently 
met with the regional representative for Kurdistan. In that 
meeting, she expressed her concerns about the resurgence of 
ISIS near Kirkuk in Iraq in the disputed territories between 
Kurdistan and Iraq, and in that area where neither is able to 
fully exert themselves.
    And there is an agreement there. DoD is onboard that the 
Kurds and the Iraqis should work together to combat ISIS there. 
But we need, I think, to apply more pressure to Baghdad to make 
sure that they get onboard with this and that they help our 
Kurdish allies there. Can you address that?
    Ambassador Sales. Yes, I am happy to. So, as you rightly 
pointed out, the physical caliphate in Syria and Iraq has been 
destroyed, but that does not mean that the fight against ISIS 
is done. It means we are moving into a new phase.
    I think the next phase has two components. I have spoken a 
bit about using civilian tools to attack ISIS networks around 
the world, but there is another component to it as well. That 
is, in theater, in Syria and Iraq, making sure that the 
remnants of ISIS are not able to reorganize themselves into an 
insurgency and carry on the fight there on the ground.
    So, there is a military dimension to that, but there is 
also a diplomatic and civilian-side dimension to that as well. 
We need to work with the Iraqi government and the Kurdish 
officials, of whom you have spoken, to make sure that we do not 
let the boot off of ISIS's neck. We have got them on the 
ground, but we cannot let up now.
    So, what specifically do we need to be doing? Well, we need 
to maintain our training of Iraqi military, Iraqi law 
enforcement, and others who are there on the front lines to 
make sure ISIS cannot resurge.
    Mr. Allred. Yes. Well, and I will also just ask you to 
apply whatever pressure you can to the Iraqi government to work 
with the Kurds, especially there in that region, in those 
disputed territories, to combine forces, do what we can. I 
agree with you, we do not want to let them resurface.
    And I want to also address a couple of the aspects of ISIS 
that have been the hardest to combat; namely, their 
sophisticated media apparatus and their financing. And you 
addressed it a little bit in your testimony, your written 
testimony. Can you discuss what our plan is going forward to 
try to combat those two elements of their sustained capability 
to exist and operate?
    Ambassador Sales. Sure, I am happy to. I have spoken a bit 
about the ideology and the CVE efforts that we are trying to 
pursue to prevent radicalization and recruitment. So, let me 
say a bit about financing and ways of facilitating terrorist 
attacks.
    I mentioned that we have designated 43 ISIS-related 
individuals and entities since 2018--since 2017. That is a good 
start, but we have got more work to do. ISIS was able to raise 
an extraordinary amount of money through a variety of different 
means when it held a so-called caliphate. It could tax a 
population. It could exploit natural resources. It could 
launder money.
    Some of those revenue streams have gone away, but others 
are still there. And so, ISIS operating as an organized crime 
syndicate, we need to think about it that way. Raising money 
through money laundering, raising money through illicit trade, 
including in narcotics. And so, we have to attack those nodes 
in the ISIS fundraising network through a combination of things 
like unilateral sanctions, sanctions at the United Nations, in 
which our domestic efforts are amplified by international 
pressure, and by bilateral engagement with other countries to 
encourage them to take the same kinds of actions that we are 
taking.
    One example of that that I would point to is the TFTC in 
the Gulf, the Terrorism Financing Targeting Center, in which 
the United States partners with a number of Gulf countries to 
jointly issue designations. We have done some against Hezbollah 
and the IRGC. We have also done some ISIS-related entities in 
tandem with our Gulf partners. We would like to see more of 
that.
    Mr. Allred. And do you believe that you have the 
authorities right now to conduct the additional pressure 
campaigns that you are talking about there?
    Ambassador Sales. I think we do, yes.
    Mr. Allred. All right. OK, good. Well, I have only 30 
seconds left, so I also want to just mention the Iraqi Shia 
militias that are backed by the Iranians. This is another thing 
that was raised for me in my meeting with the Kurdish 
representative and something that I think we need to keep our 
eye on, make sure that we are not forgetting that. And I want 
to commend some of the actions that have been taken in terms of 
designating some of the Iranian elements as terrorist 
organizations. So, thank you for that.
    Ambassador Sales. Thank you.
    Mr. Deutch. All right. Thank you, Mr. Allred.
    Mr. Watkins, you are recognized for 5 minutes.
    Mr. Watkins. Thank you, Mr. Chairman.
    Mr. Ambassador, thank you for your time and insight.
    How integral is the Trans-Sahara Counterterrorism 
Partnership to interagency efforts to combat terrorism in 
Trans-Sahara Africa?
    Ambassador Sales. I think it is important. The Sahel and 
the Maghreb regions of Africa face a perfect storm of 
challenges. You have a number of terrorist organizations that 
are extremely active there, groups like JNIM, AQIM, ISIS West 
Africa, ISIS Greater Sahara, Boko Haram. And coupled with that, 
you have States that have in many cases porous borders, States 
that do not have complete control over the periphery of their 
territory, police forces that may not have the same 
capabilities that we are accustomed to in the United States.
    And so, the efforts that we are taking under the TSCTP and 
other lines of effort I think are incredibly important. We need 
to boost the capability of these States that are on the front 
lines of the fight against ISIS affiliates and al-Qaeda 
affiliates and other terrorist groups.
    Mr. Watkins. And how is the Department of Defense, USAID, 
the Department of State coordinating their programs, both in 
the field and here in Washington?
    Ambassador Sales. Well, we all have different comparative 
advantages that we bring to the table. DoD, of course, is 
second to none in providing assistance to partner military 
forces. USAID focuses on the humanitarian and relief and 
development dimensions. My Bureau focuses on building the 
capacity of the institutions that nations need to counter the 
terrorist threat more effectively--financial intelligence 
units, border security officials, police, judges, prosecutors, 
and so on.
    Mr. Watkins. Going back to al-Qaeda and ISIS, how do those 
two threats compare to each other?
    Ambassador Sales. Boy, that is--how much time do you have, 
Congressman?
    Mr. Watkins. I have got 3 minutes.
    Ambassador Sales. OK, I will be concise.
    The world's attention has been focused on ISIS in recent 
years. They grab the headlines. But we should not be fooled 
into thinking that al-Qaeda is less of a threat than it has 
been. As some of your colleagues have pointed out in today's 
hearing, the number of AQ fighters today is greater than was 
the case before 9/11. Al-Qaeda has been strategically patient. 
They have been content to allow ISIS to absorb the brunt of the 
counterterrorism pressure that the world has brought to bear. 
But that does not mean they are out of the fight. Al-Qaeda 
affiliates are extremely active, particularly in Africa. I 
talked about AQIM and JNIM already. In the Horn, Al-Shabaab is 
an extremely dangerous terrorist organization. They commit 
attacks on a routine basis within Somalia. They also have shown 
the ability to strike their neighbors, Kenya, in particular. 
So, I would rate the threat from al-Qaeda has high and 
underappreciated by the public.
    Mr. Watkins. And what is the larger threat to the U.S. 
homeland?
    Ambassador Sales. I think they are both equal threats to 
the U.S. homeland. They both have the capability and the intent 
to hit us here at home.
    Mr. Watkins. All right. I yield the balance of my time. 
Thank you.
    Ambassador Sales. Thank you.
    Mr. Deutch. Thank you, Mr. Watkins.
    Mr. Malinowski, you are recognized.
    Mr. Malinowski. Thank you.
    Ambassador Sales, you wrote an op-ed recently with 
Ambassador Brownback on the Chinese Communist Party's 
persecution of Muslims, which I thought was absolutely first-
rate. And in particular, you made the point that, quote, ``By 
painting its human rights violations as a legitimate 
counterterrorism effort, these abuses in China undermine the 
global consensus on counterterrorism.'' Exactly right.
    My question to you is, this is not just a Chinese 
phenomena, though? You would agree that there are a number of 
countries around the world that also paint their human rights 
abuses as legitimate counterterrorism?
    Ambassador Sales. Unfortunately, China is not unique in 
that respect.
    Mr. Malinowski. Right. Can you think of some others?
    Ambassador Sales. I would be happy to share them with you 
in a different setting, Congressman.
    Mr. Malinowski. OK.
    Ambassador Sales. But, yes, I can.
    Mr. Malinowski. Well, I wanted to ask you, in particular--
there are so many examples--but I wanted to ask you, in 
particular, about Egypt, where you have had tens of thousands 
of people detained in horrific conditions in prison for mostly 
the peaceful exercise of their political views, and many of 
them prosecuted under counterterrorism laws. You have bloggers, 
journalists, human rights activists prosecuted explicitly under 
counterterrorism laws.
    According to Amnesty International, at least 35 individuals 
have recently been detained on charges of, quote, ``joining a 
terrorist group, because they stood together in solidarity in a 
small, peaceful protest against increased metro fares.'' Does 
that help bolster the international consensus on 
counterterrorism?
    Ambassador Sales. Well, peaceful political protests and the 
expression of dissident political views, that is fundamental to 
what it means to be an American. The reason it is in the First 
Amendment is because we care about freedom of speech and 
expression and assembly more than any other.
    Mr. Malinowski. Right. It is wrong, but would you also make 
the same argument that you made about Chinese repression of 
Uyghurs, that when it is justified as counterterrorism, it 
undermines the global effort to identify and fight real 
terrorism?
    Ambassador Sales. So, I believe that States should use 
their counterterrorism tools to confront actual terrorists. And 
I would also say that the scope of the repression in China is 
so vast and overwhelming that it sets it apart from other human 
rights concerns that we have elsewhere in the world. We are 
talking about----
    Mr. Malinowski. Well, it is of enormous scale, but we are 
talking about tens of thousands of people in Egypt as well, and 
I would not underplay that.
    Ambassador Sales. And I do not mean to, Congressman.
    Mr. Malinowski. OK. Syria, I wanted to echo Representative 
Kinzinger's points as well. We are seeing, as anyone would have 
predicted, the resurgence of ISIS after the defeat of the 
caliphate, driven, in part, at least in Syria, by perception 
among Sunnis living under control of the SDF that they are not 
being included in decisions; their rights are being violated. 
Do we have a civil-military plan in Syria in the areas where 
our troops are present to deal with that?
    Ambassador Sales. We do. And I am happy to update you on 
where things stand, but I am going to defer in the main to 
Ambassador Jeffrey, who has the lead for the U.S. Government on 
these questions.
    Our vision for the end-State in Syria is fairly 
straightforward. We want a Syria that is not a threat to its 
neighbors or a threat to its own people. And for too long, the 
Assad regime has been both.
    The end-State we seek is one in which ISIS is defeated 
enduringly, in which there is a political settlement, pursuant 
to the applicable U.N. Security Council resolutions, and in 
which human rights are respected. That is a vital U.S. national 
security interest. And finally, an end-State in which all 
Iranian-commanded forces are removed from Syria.
    Mr. Malinowski. Understood, but I asked a much more 
discrete question, and I would love it if you could get back to 
me on exactly what the State Department is doing to ensure that 
the SDF, which is our allied force, is not violating human 
rights, because I think you would agree that has 
counterterrorism implications.
    Ambassador Sales. We would be happy to followup.
    Mr. Malinowski. Finally, to get back to an issue that Mr. 
Deutch raised, the massacre of Muslims in the mosque in 
Christchurch, was that a terrorist act?
    Ambassador Sales. Yes, it was, and the White House has 
called it as such.
    Mr. Malinowski. OK.
    Ambassador Sales. May 15.
    Mr. Malinowski. All right.
    Ambassador Sales. Yes.
    Mr. Malinowski. A little late, but----
    Ambassador Sales. And National Security Advisor Bolton also 
called it a terrorist attack in the immediate aftermath of the 
terrorist attack.
    Mr. Malinowski. OK. Thank you.
    I yield back.
    Mr. Deutch. Thank you, Mr. Malinowski.
    Mr. Cicilline, you are recognized for 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman, for holding this 
hearing.
    I want to begin where Mr. Malinowski left off. Since 
September 11th, more Americans have been killed in the United 
States by a white nationalist terrorist than by radical 
Jihadist terrorists, and a number of attacks have already been 
referenced in this hearing. So, I would really like to know 
what--first of all, do you acknowledge that white national 
terrorists are as much of a threat to Americans as radical 
Jihadists?
    Ambassador Sales. We recognize that it is a significant 
terrorist threat. And you can turn to our National Strategy on 
Counterterrorism, where we were the first administration ever 
to specifically call out racially motivated terrorism as a 
threat that needs to be confronted.
    Mr. Cicilline. So, would you talk a little bit about how 
your Bureau is using the countering violent extremism tools to 
counter white national terrorists worldwide? And do you think 
the Bureau can do more, should be doing more? What is the 
current status of those efforts?
    Ambassador Sales. Sure. So, let me say a word, first, to 
situate what we are doing at the CT Bureau within the context 
of the broader U.S. Government approach. When it comes to 
racially motivated terrorists here in the United States, 
domestic terrorists, as you know, that is a DHS and FBI 
responsibility. Our responsibility at CT begins where the water 
begins.
    And so, the things that we are doing in the CVE space, in 
particular, we have been engaging with internet companies, with 
tech companies, about the removal of radicalizing content. One 
of the things we have seen is that racially motivated 
terrorists around the world are quick studies. They have 
learned from ISIS and its use of social media to propagate 
messages of hate and intolerance and violence. And so, we 
engage social media companies about the need to remove content 
that violates certainly law, but also their terms of service.
    Mr. Cicilline. OK. In addition to that, what else?
    Ambassador Sales. And so, another thing that we do is, with 
the Strong Cities Network, which is a program that my Bureau 
funds, we connect people and cities in the United States with 
municipal officials overseas to exchange best practices for 
confronting radicalization, including racially motivated 
extremism.
    Mr. Cicilline. Mr. Ambassador, as the Acting Under 
Secretary for Civilian Security, Democracy, and Human Rights, 
you are responsible for oversight of the Bureau of Democracy, 
Rights, and Labor, is that right?
    Ambassador Sales. That is correct.
    Mr. Cicilline. And what type of work does the Bureau known 
as DRL perform?
    Ambassador Sales. Well, as Congressman Malinowski well 
knows, it is the principal organ within the U.S. Government 
that monitors and advocates for the promotion of human rights 
around the world.
    Mr. Cicilline. And I take it you have confidence in the 
knowledge and the capabilities of the men and women who serve 
in DRL to advise you and the Secretary on issues of human 
rights?
    Ambassador Sales. I certainly do, and if you could put in a 
word with your Senate colleagues, we would love to have the 
nominee confirmed to lead the office on a permanent basis.
    Mr. Cicilline. And you are familiar with the Secretary of 
State's recently announced Commission on Unalienable Rights?
    Ambassador Sales. I am.
    Mr. Cicilline. And so, you know that, according to the 
notice, the purpose of this Commission is to, and I quote, 
``provide fresh thinking about human rights discourse where 
such discourse has departed from our Nation's founding 
principles of natural law and natural rights.'' End quote. Were 
you consulted or involved in the creation of this Commission?
    Ambassador Sales. I was not.
    Mr. Cicilline. Can you define ``natural law'' for me?
    Ambassador Sales. As a former law professor, I could 
probably spend the next hour doing so. A concise version of it 
is the law that is natural to human beings qua human beings. 
That is to say, law that is written on the heart of man, to use 
the 18th century expression.
    Mr. Cicilline. How about ``natural rights''?
    Ambassador Sales. Natural rights, ``We hold these truths to 
be self-evident, that all men are created equal'' and endowed 
with certain unalienable rights, including life, liberty, and 
pursuit of happiness,.
    Mr. Cicilline. Mr. Ambassador, you may know that the terms 
``natural law'' and ``natural rights'' have close associations 
with movements that are expressly homophobic and discriminatory 
toward women and minorities. Do you believe that rights for 
women are included in the Secretary's definition of 
``unalienable rights''?
    Ambassador Sales. I absolutely do.
    Mr. Cicilline. And what about the rights of the LGBTI 
community?
    Ambassador Sales. Absolutely.
    Mr. Cicilline. Are you aware that the Chairwoman, and some 
of the other members of this Commission, has a history of 
publicly arguing against and disparaging the rights of LGBTI 
individuals?
    Ambassador Sales. Well, Congressman, I am here to talk 
about the State Department's counterterrorism----
    Mr. Cicilline. Well, I am going to ask questions, sir. Are 
you familiar with that?
    Ambassador Sales. I am here to talk about counterterrorism.
    Mr. Cicilline. Are you familiar with that Commission Chair?
    Ambassador Sales. I am here to talk about counterterrorism.
    Mr. Cicilline. Sir, please answer my question.
    Ambassador Sales. I am here to answer questions about the--
--
    Mr. Cicilline. Well, I will ask another question. What type 
of message do you think it sends to the LGBTI community when 
the State Department, and many of whom are serving overseas in 
very difficult capacities, to have a chair of a commission that 
has historically been used to discriminate against the LGBTQI 
community, who has said disparaging comments about the 
community? What kind of message does that send to diplomats who 
serve our country in dangerous places around the world?
    Ambassador Sales. I think the message that we are sending 
is the one that the Secretary has been very clear about from 
the day he took the oath of office. And that is that every 
person is entitled to be treated with dignity and respect, 
regardless of their views, regardless of their backgrounds. And 
that is a message that I, personally, convey to my team, as 
Under Secretary and as Assistant Secretary, and it is one that 
we take very seriously.
    Mr. Cicilline. My time has expired. I wish I had a little 
more time to followup on that, but I yield back.
    Mr. Deutch. Thank you, Mr. Cicilline.
    Mr. Trone, you are recognized.
    Mr. Trone. Ambassador, thanks for being here today.
    On April 8th, as we talked about earlier, you designated 
the IRGC as a foreign terrorist organization. This is the first 
time that we have a State institution designated as such. Does 
that represent a shift in the U.S. definition of terrorism?
    Ambassador Sales. No, Congressman, I think it represents an 
extension of longstanding definitions of terrorism to a State 
actor in the IRGC that has been engaging in terrorism for a 
long time, but has never been called out as such.
    Mr. Trone. OK. So, there could be more coming?
    Ambassador Sales. I am not in a position to sneak-preview 
any sanctions that may or may not be happening, but we are 
always on the lookout for individuals or organizations that 
might meet the legal standards for designation.
    Mr. Trone. As you weigh this out, what are the benefits and 
risks of this designation?
    Ambassador Sales. Well, I think the two principal benefits 
of the designation are, first of all, the messaging, which 
illustrates in a very dramatic way that Iran is unique among 
the nations of the world in its use of terrorism as a basic 
tool of Statecraft. The IRGC promotes, and does more than just 
promote and support, but actively engages in terrorism around 
the world.
    A second benefit is that this gives us new tools for 
prosecutors to hold accountable people who provide support to 
the IRGC. It is a Federal criminal offense to knowingly provide 
material support or resources to a designated FTO. And so, with 
the FTO designation of the IRGC, this creates opportunities for 
our prosecutors to pursue additional charges.
    Mr. Trone. Any downside?
    Ambassador Sales. Any downsides? I do not think that 
calling the IRGC a terrorist organization is a bad idea.
    Mr. Trone. OK. The CT Bureau is responsible for CT-related 
cooperation with international partners, including programs to 
enhance partners' law enforcement capacities. What are some of 
the achievements that CT partnerships have brought us the last 
year?
    Ambassador Sales. Well, one of the most important things 
that we do is train crisis response teams around the world. We 
need to make sure that the people serving on the front lines 
are able to respond to terrorist attacks in real time as they 
are happening, and either turn the attacks off or mitigate the 
amount of damage that is being done.
    And we have seen some pretty dramatic successes from our 
work in this field. I just returned from Kenya several weeks 
ago, where I was present for a U.N. Conference on Terrorism 
Threats in Africa. And Kenya is a pretty important success 
story about how we have been able to boost the ability to 
respond to terrorist attacks. You will recall, in 2013 and 
2015, Al-Shabaab militants, Al-Shabaab terrorists committed 
attacks against the Westgate Mall and against the university 
with really extraordinarily high casualty counts.
    Fast forward to January of this year. Al-Shabaab tried it 
again, this time attacking the Dusit Hotel Complex in Nairobi. 
While they were successful in killing, I believe, 20 people, 
the response teams that the CT Bureau trained were able to 
intervene very early on in the attack and minimize the 
casualties. Of course, we mourn the 21 lost lives, but we are 
grateful that this team was in place to prevent the carnage 
from being far worse.
    Mr. Trone. Who are the most challenging partners you deal 
with?
    Ambassador Sales. I am happy to answer that question in a 
different setting, sir.
    Mr. Trone. OK. How do you ensure compliance with 
international law and human rights law when implementing the CT 
cooperation programs in complex environments like Afghanistan, 
Iraq, and sub-Sahara?
    Ambassador Sales. Well, let me start by saying why that is 
really important. Respect for human rights and counterterrorism 
go hand-in-hand. Countries that have a lower respect for human 
rights are less resilient to terrorist radicalization. Security 
forces that commit abuses are an important source of motivation 
for terrorists. So, it is important that we get this right.
    And the way we do this is we comply with the Leahy law, 
which requires us to withhold assistance from units that engage 
in gross violations of human rights. So, we robustly enforce 
that requirement through investigations that we conduct in 
cooperation with our embassies abroad, our regional bureaus 
that have oversight, as well as the intelligence community.
    Mr. Trone. Thank you for your service.
    Ambassador Sales. Thank you.
    Mr. Deutch. Thank you, Mr. Trone.
    Mr. Zeldin, you are recognized.
    Mr. Zeldin. Thank you to the chair for holding today's 
hearing and the ranking member.
    Ambassador, thank you for being here.
    I believe that, briefly, earlier on in the hearing, you got 
into the topic of social media and as it relates to your 
mission statement. We have designated foreign terrorist 
organizations operating on social media platforms in other 
parts of the world. Hamas comes to mind. They still have 
accounts. Muslim Brotherhood is not a designated foreign 
terrorist organization, although there is a debate in Congress 
as to whether they should be.
    But, focusing specifically on the designated foreign 
terrorist organizations, it is interesting, using Hamas as an 
example--and I have been engaged, a number of Members have been 
engaged with Twitter on the back-and-forth. I believe that if 
you look at Twitter's own criteria for a violent extremist 
group, which is the term that they use, the three elements that 
Twitter uses, Hamas meets that definition of a violent 
extremist group.
    If an operation is conducted abroad against that designated 
foreign terrorist organization, and any of the traditional 
media platforms are taken offline, Hamas is able to stand up 
their media operation in an instant utilizing, for example, 
their Twitter platforms.
    So, can you speak in a little more detail as far as what is 
the path forward? You have United States companies providing 
this invaluable resource to designated foreign terrorist 
organizations, and it harms not only our national security 
interests, but those of our allies.
    Ambassador Sales. I think that is exactly right, 
Congressman. And another thing I would add is that it could 
harm the social media companies that host this content as well, 
because, presumably, they do not want to be seen as enabling 
the activities of a terrorist organization like Hamas, like 
Hezbollah, or like the IRGC.
    One of the things that we have done at my Bureau--and other 
players in the executive branch have done this as well--has 
been, when there is a designation of an individual or 
organization as a terrorist, to reach out to social media 
companies to make sure that they are aware of the fact that 
this person or this group has been designated, so that they are 
able to consider the implications for a decision to continue to 
host that person or group on their platforms.
    We have actually seen social media companies respond to our 
designations. After the IRGC designation was announced in 
April, we saw some social media platforms evict IRGC-related 
individuals, so as to not run afoul of U.S. sanctions 
requirements.
    Mr. Zeldin. One of the things that the social media 
companies will do, using Twitter and the Hamas example as one 
that is perfect for this back-and-forth, is try to separate a 
political wing from a military wing. That debate played out in 
Parliament in Germany when they were trying to decide recently 
whether or not to designate Hezbollah's political wing, as they 
would call it. We would advocate for Germany to designate 
Hezbollah as a whole. There are European countries/entities 
that have designated specifically just the military wing.
    So, in your interactions with these social media companies, 
are you able to get down to that level and make headway? 
Because while some platforms clearly are being removed from 
certain entities, Hamas still has their Twitter accounts.
    Ambassador Sales. Yes, we do discuss that with social media 
companies. And the U.S. position on Hezbollah, in particular, 
is perfectly clear. It is a terrorist organization through and 
through. We reject the false distinction between a political 
wing and a military wing.
    Hassan Nasrallah is not a political figurehead. He runs a 
terrorist outfit, full stop. And so, we have communicated to 
social media companies that, when seeking to comply with U.S. 
sanctions/law, you should be aware of the fact that we see the 
entire organization as sanctionable.
    Mr. Zeldin. Yes, real briefly, switching gears, a quick 
question. Just last week, there were disturbing reports in the 
media about the ISIS flag being flown at a camp in northeast 
Syria which currently houses women and children. Can you speak 
briefly to, are you concerned about these camps serving as 
incubators for radicalization?
    Ambassador Sales. Yes. Yes, we are. So, I think you are 
referring to the Al-Hawl camp in Syria, which houses, I 
believe, about 70,000, give or take, mostly women and children. 
The majority of the population is either Iraqi or Syrian, but 
there are about 11,000 people in the camp who hail from other 
countries around the world, Western Europe, Africa, the Gulf, 
Southeast Asia, and so on.
    Our policy for how to treat the residents of these camps is 
essentially the same as our policy for what should be done with 
the male fighters with which they are associated. They need to 
be taken back to their countries of origin. In the case of 
women, some of them may have committed crimes. If that is the 
case, they should be repatriated and prosecuted, and we should 
not give them a pass simply because they happen to be a woman. 
The United States does not do that. We have prosecuted a woman 
whom we repatriated from Syria and Iraq, and we expect other 
countries to do so as well.
    The point is, for as long as these women and children are 
in an internally displaced person's camp in the middle of the 
desert, we are not going to be able to do the hard work of de-
radicalizing them and reintegrating them into society. That can 
only happen if countries of origin take responsibility for 
their citizens and intervene actively to disengage them from 
the ideology.
    Mr. Zeldin. Thank you. Thank you. I appreciate your 
concern. I am out of time.
    Ambassador Sales. Thanks.
    Mr. Deutch. Thank you, Mr. Zeldin.
    Mr. Vargas, you are recognized.
    Mr. Vargas. Thank you very much, Mr. Chairman.
    And, Ambassador, thank you very much for being here. I 
appreciate it very much, as we all do.
    I am glad you are talking about ideology and ideas. I think 
that your job is very important and what you do within the 
administration is very important, because I do think that this 
is ultimately a battle of ideas and philosophy. I mean, I am 
very optimistic about the future of humanity. I am not 
pessimistic.
    And the reason for that is, I look back in history and look 
at what was happening in Spain under Moorish Spain. You had a 
high degree of tolerance under Moorish Spain between Jews, 
Christians, and Muslims. It was not perfect, but I do remember 
what happened once the Catholics got involved and, ultimately, 
reconquered. You had Isabella and Ferdinand with the expulsion, 
the forced conversions, horrible things that we Catholics did. 
We learned our lesson and found out that it was a very bad idea 
and I have hoped we have reformed. It took us a while to do 
that, but that is why I am optimistic. I know that people can 
change.
    So, that is why I look at your budget, and the work that 
you do I think is very, very important in this battle of 
ideology. But it seems like you are not getting the money that 
you need, the personnel that you need, the positions. Can you 
talk a little bit about that?
    Ambassador Sales. Sure. I am happy to, Congressman. So, 
first of all, thank you for the support that you and the 
committee and Congress as a whole have provided to us, 
financial support. Our budget request of $241 million is the 
amount of money that we think we need to do the job 
effectively. Now it is less than we were appropriated last 
year.
    Mr. Vargas. Sure.
    Ambassador Sales. But if you compare this year's request to 
the long-term historical trend, it is actually right in line. 
So, from 2009 to 2015, our budget request was typically between 
$230 and $250 million in foreign assistance. Now there was a 
spike in fiscal years 1916 and 1917 where the numbers were 
substantially higher. But this year's budget request represents 
a return to the historical norm. I think we were effective in 
2015. I think we would be effective with this budget as well.
    Mr. Vargas. OK. It does concern me, again, because it seems 
like we were going in the right direction. I like this 
investment that we are making with counterterrorism, the fight 
between ideology and philosophy. I think you guys are doing a 
good job, but it seems like we are starving you. And I do not 
agree with that. I will support this budget, but I would like 
to see an enhancement.
    I do want to yield the rest of my time, though, to my good 
friend from Rhode Island, who has some questions. Thank you.
    Mr. Cicilline. I thank the gentleman for yielding.
    Mr. Ambassador, you just said, in response to Mr. Trone's 
question, ``Respect for human rights and counterterrorism go 
hand-in-hand.'' It is in light of that statement that I am 
particularly disappointed that the Acting Director of the 
Bureau of Democracy, Rights, and Labor, who claims he has 
confidence in the men and women of his Bureau, will not at 
least acknowledge the inappropriate statements of the chair of 
this new commission and condemn them publicly, who made 
comments disparaging and arguing against the rights of LGBTI 
people.
    And the impact that has on the agency, on our standing in 
the world, is very disturbing. And I hope you hear the message 
loudly and clearly that those of us who believe that the United 
States plays an important role in defending human rights around 
the world, as one of the most important ways to keep this 
country safe, have a responsibility not only to speak those, 
but to live those actions by the conduct we engage in.
    Ambassador Sales. And I would----
    Mr. Cicilline. And I will tell you that your refusal to 
even acknowledge it is gravely disappointing to me.
    Ambassador Sales. Well, Congressman----
    Mr. Cicilline. But I will move--no, no, sir, you are not 
going to acknowledge it. So, are you prepared to acknowledge 
what the chairwoman said?
    Ambassador Sales. Mr. Chairman, am I allowed to answer the 
question?
    Mr. Deutch. The gentleman asked you a question.
    Mr. Cicilline. The question I asked you is, are you aware 
that the chairwoman and some of the other members of this new 
commission have a history of publicly arguing against and 
disparaging the rights of LGBTI individuals?
    Ambassador Sales. My answer to your question is that the 
Secretary and I, and the rest of the Secretary's leadership 
team, are fully committed----
    Mr. Cicilline. That is not the question, sir.
    Ambassador Sales [continuing]. Fully committed----
    Mr. Cicilline. I will repeat the question.
    Ambassador Sales [continuing]. To human rights----
    Mr. Cicilline. Are you aware that the chairwoman----
    Ambassador Sales [continuing]. To the rights----
    Mr. Cicilline [continuing]. And some of the other members 
of this commission, not you, not the Secretary, I am asking 
about the chairwoman of this newly created commission that is 
supposed to talk about natural rights has made disparaging 
comments and argued against the rights of LGBTI people? That is 
a yes or a no.
    Ambassador Sales. I cannot speak for----
    Mr. Cicilline. You are not aware of it?
    Ambassador Sales. I cannot speak for people to whom you are 
referring. I can only speak for myself, the State Department, 
and----
    Mr. Cicilline. So, your answer is, no, you are not aware 
that the chair of this commission----
    Ambassador Sales. But I can tell you----
    Mr. Cicilline [continuing]. Has made disparaging comments? 
Is your answer no?
    Ambassador Sales. And I can tell you that anyone who comes 
to work for the State Department is expected to live by the 
highest standards of personal integrity. That includes respect 
for others, because of the inherent dignity which all people 
are entitled to----
    Mr. Cicilline. Sir, sir, with all due respect----
    Ambassador Sales [continuing]. Regardless of their 
background----
    Mr. Cicilline [continuing]. That is not my question.
    Ambassador Sales [continuing]. Regardless of their views--
--
    Mr. Cicilline. I am asking whether you are aware, as you 
sit there today, that the woman who was appointed to chair this 
commission and several of the members have made disparaging 
comments and argued against the rights of LGBTI people? That's 
a yes or a no. Either you do, are aware of it or you are not.
    Ambassador Sales. I am telling you----
    Mr. Cicilline. I am not asking you to characterize their 
views. I am asking you, are you aware of those positions of the 
members of that commission?
    Ambassador Sales. Congressman, you are characterizing their 
views. I am not in a position to express an opinion other than 
what I have told you, which is that I personally, and the 
Secretary and the entire State Department leadership team are 
committed----
    Mr. Cicilline. Reclaiming my time----
    Ambassador Sales [continuing]. Fully committed----
    Mr. Cicilline [continuing]. You are not going to answer the 
question; I am not going to allow you to make a speech.
    I yield back.
    Mr. Deutch. Thank you.
    Before we conclude, Ambassador Sales, I would just like to 
clarify one thing from earlier. Radical Islamist terrorism, we 
have spent a lot of time talking about it is a worldwide 
movement of different groups committed through their ideologies 
to terror activities, correct?
    Ambassador Sales. I would--yes, broadly, yes.
    Mr. Deutch. And I am just looking in broad terms. Racially 
motivated terrorism, is that the same? Is there also a network 
of groups committed to racially motivated terrorism? Or does 
the term ``white nationalist terrorism'' more accurately 
reflect that collection of groups that is committed to that 
ideology?
    Ambassador Sales. Well, the term that our interagency 
settled on was ``racially motivated terrorism'' a year and a 
half ago----
    Mr. Deutch. Right.
    Ambassador Sales [continuing]. When we started working on 
the National CT Strategy. So, that is the term that we use to 
express, and there are other terms. I have heard the term 
``ethno-violent extremism,'' and various others.
    Mr. Deutch. I understand. Before we wrap up, I just wanted 
to make sure I understood whether there is a worldwide epidemic 
of racially motivated terrorism, whether you are saying it is 
the same as white nationalist terrorism, or is white 
nationalist terrorism part of it? Because a lot of us believe 
that the data suggests that it is white nationalist terrorism 
that is the growing threat.
    Ambassador Sales. Well, the way I would answer that 
question is to say there are different terms that are being 
used to attempt to describe essentially the same phenomenon. 
And the terms that you have used, that I have read in the 
literature, that our international partners use, all differ, 
but I think we are all trying to describe the same problem.
    Mr. Deutch. OK. Thank you.
    I thank you and all the members for being here today. This 
was a terrific hearing, Ambassador Sales. Thanks for your 
testimony.
    Members of the subcommittee may have some additional 
questions for you. We ask that you please respond to those 
questions in writing. And I would ask my colleagues to submit 
any questions to the subcommittee clerk within five business 
days.
    Mr. Deutch. And with that, without objection, the 
subcommittee is adjourned.
    [Whereupon, at 3:28 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
